August 2006
Report No. 06-016


Controls Over the Disposal of Sensitive
FDIC Information by Iron Mountain, Inc.



               AUDIT REPORT

       This Report Contains Confidential
                  Information
             For Official Use Only
             Restricted Distribution
                                                                                                        Report No. 06-016
                                                                                                        August 2006

                                          Controls Over the Disposal of Sensitive FDIC
                                          Information by Iron Mountain, Inc.
                                          Results of Audit
                                          The FDIC established a number of key controls to ensure the secure disposal of
Background and                            sensitive information by Iron Mountain. Such controls include a corporate policy
Purpose of Audit                          on records disposal; policies and procedures related to contractor integrity, fitness,
                                          and background investigations; and contractual requirements governing the
In carrying out its mission, the
                                          destruction of information. In addition, no instances of unauthorized disclosure or
FDIC creates and acquires a
                                          use of sensitive FDIC information came to our attention during the audit. However,
significant amount of sensitive
                                          as reflected in the table below, the FDIC needed to improve its oversight of the Iron
information. Much of this
                                          Mountain contract to ensure that controls designed to safeguard the disposal of
information is required to be
                                          sensitive information were effectively implemented. We also identified certain
protected by federal statutes and
                                          other matters relating to subcontractor costs and agreements and the identification of
regulations. It is, therefore, critical
                                          FDIC’s records management contractors that warrant management attention.
that the FDIC implement
appropriate controls when
disposing of sensitive information         Controls for Safeguarding the Disposal      Establishment     Implementation
to prevent an unauthorized                       of Sensitive Information               of Control         of Control
disclosure that could lead to
                                           Independent Audits and Trade                   Needs               Needs
potential legal liability or public
                                           Certifications                              Improvement         Improvement
embarrassment.
                                                                                                 *
                                           Integrity, Fitness, and Custody of               √                 Needs
The FDIC’s Division of                     Sensitive Information                                           Improvement
Administration (DOA) has overall
responsibility for the FDIC’s                                                                √                Needs
records management program,                Background Investigations                                       Improvement
including the disposition of official
hardcopy and electronic records no                                                                            Needs
                                           Authorization of Contractor Personnel             √
longer needed to conduct business.                                                                         Improvement
In 2000, DOA awarded a contract
to Iron Mountain, Inc.® (Iron              Supervision of Records and Media                  √                Needs
                                           Destruction                                                     Improvement
Mountain) for nationwide records
management services, including                                                               √                Needs
the disposal of sensitive FDIC             Certificates of Destruction
                                                                                                           Improvement
records. The FDIC’s headquarters
offices disposed of approximately          On-site Inspections of Disposal                   √                Needs
168,000 pounds of sensitive and            Operations                                                      Improvement
non-sensitive records from July           * Indicates that the control is in place.
2005 through February 2006,
primarily due to consolidation of         Recommendations and Management Response
headquarters office space.
The objective of the audit was to         We recommended that the Director, DOA:
determine whether the FDIC has            • Consider the results of independent operational audits and recognized trade
adequate controls for ensuring the           association certifications before approving disposal firms.
secure disposal of sensitive              • Require all firms providing records disposal services on behalf of the FDIC to
information by Iron Mountain. The            comply with FDIC acquisition policies and procedures.
audit focused on the disposal of          • Establish clear expectations regarding contractor and subcontractor oversight
information contained in shredder            for contracted records management services.
bins and consoles provided by Iron        • Perform periodic site inspections of firms providing records disposal services.
Mountain for the FDIC’s                   • Ensure that subcontractor invoices and agreements are consistent with FDIC
headquarters offices.                        policy and the Iron Mountain contract.
                                          • Identify all firms providing records management services for the FDIC.

                                          DOA management’s comments and planned actions were responsive to the
                                          recommendations.
